IN THE SUPREME COURT OF THE UNITED STATES
No.

_

STARLINE TOURS OF HOLLYWOOD, INC.,
Petitioners,
vs.
EHM PRODUCTIONS INC. and WARNER BROS. ENTERTAINMENT INC.
Respondents.
PROOF OF SERVICE
I hereby certify that on April 2, 2021, I electronically filed the following
documents with the Clerk of the Court for the United States Supreme
Court:
PETITION FOR WRIT OF CERTIORARI
APPENDIX
CERTIFICATE OF COMPLIANCE
I further certify that on April 2, 2021, I caused one copy of the above·
mentioned documents to be sent to this Court via FedEx overnight
service. I further certify that, as required by Supreme Court Rule 29.3,
I caused one copy of these documents to be served via Fed Ex overnight
service along with an electronic copy via email upon:

Samuel C. Cortina, Attorney
Lennette W. Lee, Attorney
King and Spalding LLP
633 W. 5th Street
Suite 1600
Los Angeles, CA 90071
scortina@ksla w .corn
llee@kslaw.corn
(213) 443-4013
(213) 448-4355
Attorneys fol' Respondents Wal'nel' Bros. Entertainment Inc.
And EHM Productions Inc. dba TMZ
All of the parties required to be served have been served.
I declare under penalty of perjury under the law of the United States of
America that the foregoing is true and correct.

Date: April 2, 2021

